The Office of Inspector General (OIG) maintains a system of quality control to ensure
that work performed adheres to established OIG policies and procedures, meets
established standards of performance, and is carried out economically, efficiently, and
effectively. Also, in accordance with government auditing standards,  the  OIG’s  auditing  
function is subject to peer review. Peer reviews provide additional, external assurance
of  the  OIG’s  adherence  to  prescribed  standards,  regulations,  and  legislation, through a
formal objective assessment of OIG operations. The Council of the Inspectors General
on Integrity and Efficiency (CIGIE) prescribes the methodology for performing peer
reviews.  Attached  is  the  latest  review  of  OIG’s  auditing  functions.


02-14-2013

Final report of the results of the Tennessee Valley Authority Office of Inspector
General’s  External  Quality  Control  Review  of  the  Amtrak  Inspector  General’s  audit  
organization, conducted in accordance with government auditing standards and
guidelines established by the Council of the Inspectors General on Integrity and
Efficiency. The report shows the Amtrak OIG received a rating of pass.
Office of the Inspector General
Tennessee Valley Authority, 400 West Summit Hill Drive, Knoxville, Tennessee 37902-1401


Richard W. Moore
Inspector General




                                                         February 14, 2013




The Honorable Theodore (Ted) Alves
Inspector General
National Passenger Railroad Corporation (Amtrak)
10 G Street, NE, Suite 3W-300
Washington, D.C. 20002-4285

Dear Mr. Alves:

SYSTEM REVIEW REPORT ON THE NATIONAL PASSENGER RAILROAD
CORPORATION (AMTRAK) OFFICE OF THE INSPECTOR GENERAL AUDIT
ORGANIZATION

       Enclosed is the final System Review Report of the Amtrak Office of the Inspector
General Audit organization conducted in accordance with Government Auditing Standards
and the Council of the Inspectors General on Integrity and Efficiency guidelines.

      We thank you and your staff for the assistance and cooperation received during the
conduct of the review.

                                                         Very truly yours,



                                                         Richard W. Moore


Enclosure
Office of the Inspector General
Tennessee Valley Authority, 400 West Summit Hill Drive, Knoxville, Tennessee 37902-1401


Richard W. Moore
Inspector General




                                                         February 14, 2013



The Honorable Theodore (Ted) Alves
Inspector General
National Passenger Railroad Corporation (Amtrak)
10 G Street, NE, Suite 3W-300
Washington, D.C. 20002-4285

Dear Mr. Alves:

SYSTEM REVIEW REPORT ON THE NATIONAL PASSENGER RAILROAD
CORPORATION (AMTRAK) OFFICE OF THE INSPECTOR GENERAL AUDIT
ORGANIZATION

        We have reviewed the system of quality control for the audit organization of the Office
of the Inspector General for the National Passenger Railroad Corporation (Amtrak OIG) in
effect for the year ended September 30, 2012. A system of quality control encompasses
Amtrak  OIG’s  organizational  structure  and  the  policies adopted and procedures established
to provide it with reasonable assurance of conformity with Government Auditing Standards.
The elements of quality control are described in Government Auditing Standards. Amtrak
OIG is responsible for designing a system of quality control and complying with it to provide
Amtrak OIG with reasonable assurance of performing and reporting in conformity with
applicable professional standards in all material respects. Our responsibility is to express an
opinion on the design of  the  system  of  quality  control  and  Amtrak  OIG’s  compliance  there  
with based on our review.

        Our review was conducted in accordance with Government Auditing Standards and
guidelines established by the Council of the Inspectors General on Integrity and Efficiency.
During our review, we interviewed Amtrak OIG personnel and obtained an understanding of
the nature of the Amtrak OIG audit organization and design of the  Amtrak  OIG’s  system  of  
quality control sufficient to assess the risks implicit in its audit function. Based on our
assessments, we selected engagements and administrative files to test for conformity with
professional standards and compliance with the  Amtrak  OIG’s  system  of    quality control
The Honorable Theodore (Ted) Alves
Page 2
February 14, 2013



sufficient to assess the risks implicit in its audit function. Based on our assessments, we
selected engagements and administrative files to test for conformity with professional
standards and compliance  with  the  Amtrak  OIG’s  system  of  quality  control.    The  
engagements selected represented a reasonable cross-section  of  the  Amtrak  OIG’s  audit  
organization, with emphasis on higher-risk engagements. Prior to concluding the review,
we reassessed the adequacy of the scope of the peer review procedures and met with
Amtrak OIG management to discuss the results of our review. We believe that the
procedures we performed provide a reasonable basis for our opinion.

         In performing our review, we obtained an understanding of the system of quality
control  for  the  Amtrak  OIG’s  audit  organization.    In  addition,  we  tested  compliance  with  the  
Amtrak  OIG’s  quality  control  policies  and  procedures  to  the  extent  we  considered  appropriate.
These tests covered the application  of  the  Amtrak  OIG’s  policies  and  procedures  on  selected  
engagements. Our review was based on selected tests; therefore, it would not necessarily
detect all weaknesses in the system of quality control or all instances of noncompliance with it.

       There are inherent limitations in the effectiveness of any system of quality control
and, therefore, noncompliance with the system of quality control may occur and not be
detected. Projection of any evaluation of a system of quality control to future periods is
subject to the risk that the system of quality control may become inadequate because of
changes in conditions, or because the degree of compliance with the policies or procedures
may deteriorate.

      The enclosure to this report identifies the Amtrak OIG office we visited and the
engagements we reviewed.

        In our opinion, the system of quality control for the audit organization of Amtrak OIG
in effect for the year ended September 30, 2012, has been suitably designed and complied
with to provide Amtrak OIG with reasonable assurance of performing and reporting in
conformity with applicable professional standards in all material respects. Federal audit
organizations can receive a rating of pass, pass with deficiencies, or fail. Amtrak OIG has
received a peer review rating of pass.

                                                  Very truly yours,



                                                  Richard W. Moore

Enclosure
                                                                              ENCLOSURE
                                                                               Page 1 of 1

                             SCOPE AND METHODOLOGY

SCOPE

We tested compliance with the Office of the Inspector General for the National Passenger
Railroad Corporation’s (Amtrak OIG) system of quality control to the extent we considered
appropriate. These tests included a review of four of fourteen audit reports issued during
the period October 1, 2011, through September 30, 2012, and the associated audit
documentation. We also reviewed documentation related to the internal quality control
reviews performed by Amtrak OIG for the year ended September 30, 2012, and the internal
quality control reports issued for the two preceding years.

Amtrak OIG did not perform any nonaudit services, attestation engagements, financial
statement audits, or monitoring of engagements performed by independent public
accountants (IPAs), where the IPA served as the principal auditor, during the period
October 1, 2011, through September 30, 2012.

METHODOLOGY

The Council of the Inspectors General on Integrity and Efficiency Guide for Conducting
External Peer Reviews of the Audit Organizations of Federal Offices of Inspector General
(Guide), dated March 2009, as updated November 2012, was used to conduct the review.

The Tennessee Valley Authority Office of the Inspector General reviewed Amtrak OIG audit
policies and procedures, continuing professional education and independence documents;
interviewed management and staff; and completed the following checklists from the Guide.

      Appendix A – Policies and Procedures
      Appendix B – Checklist for Review of Adherence to General Standards
      Appendix E – Checklist for Review of Performance Audits Performed by the Office
       of Inspector General

We also visited Amtrak OIG headquarters in Washington, D.C., during January 7-11, 2013,
and reviewed documentation associated with the four audits selected for testing.

REVIEWED AUDITS PERFORMED BY AMTRAK OIG

 Report Number         Report Date                                Report Title
 OIG-A-2012-004     February 15, 2012      ON-TIME-PERFORMANCE INCENTIVES: Inaccurate
                                           Invoices  were  Paid  Due  to  Weaknesses  in  Amtrak’s  
                                           Invoice Review Process
 OIG-A-2012-007     March 30, 2012         AMTRAK CORPORATE GOVERNANCE:
                                           Implementing a Risk Management Framework is
                                           Essential  to  Achieving  Amtrak’s  Strategic  Goals
 OIG-A-2012-017     September 26, 2012     ANNUAL FINANCIAL STATEMENT AUDITS:
                                           Observations for Improving Oversight of the
                                           Independent Public Accountant
 OIG-A-2012-021     September 21, 2012     AMERICAN RECOVERY AND REINVESTMENT ACT:
                                           Some Questioned Invoice Charges and Minimal
                                           Benefit from Duplicative Invoice-Review Process
